<html>
<title> - THE BUREAU OF RECLAMATION'S TITLE TRANSFER PROCESS AND POTENTIAL BENEFITS TO FEDERAL AND NON-FEDERAL STAKEHOLDERS</title>
<body><pre>[Senate Hearing 115-496]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-496

                   THE BUREAU OF RECLAMATION'S TITLE
                TRANSFER PROCESS AND POTENTIAL BENEFITS
                TO FEDERAL AND NON-FEDERAL STAKEHOLDERS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                            WATER AND POWER

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION
                               __________

                            JANUARY 17, 2018
                               __________

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
               COMMITTEE ON ENERGY AND NATURAL RESOURCES
               
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
28-693                      WASHINGTON : 2019  



                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota
                                 ------                                

                    Subcommittee on Water and Power

                          JEFF FLAKE, Chairman

JOHN BARRASSO                        CATHERINE CORTEZ MASTO
JAMES E. RISCH                       RON WYDEN
MIKE LEE                             BERNARD SANDERS
BILL CASSIDY                         JOE MANCHIN III
ROB PORTMAN                          TAMMY DUCKWORTH
SHELLEY MOORE CAPITO                 TINA SMITH

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Lane Dickson, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
          Camille Touton, Democratic Professional Staff Member
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Flake, Hon. Jeff, Subcommittee Chairman and a U.S. Senator from 
  Arizona........................................................     1
King, Jr., Hon. Angus S., Subcommittee Ranking Member and a U.S. 
  Senator from Maine.............................................     7

                               WITNESSES

Ewell, Austin, Deputy Assistant Secretary for Water and Science, 
  U.S. Department of the Interior................................     8
Arrington, Paul L., Executive Director/General Counsel, Idaho 
  Water Users Association, Inc...................................    13
Brown, Jerry, General Manager, Contra Costa Water District.......    21
DeVries, Michael, General Manager of Metropolitan Water District 
  of Salt Lake & Sandy, and Director of Provo River Water Users 
  Association....................................................    27
Phillips, Jason, Chief Executive Officer, Friant Water Authority, 
  CA.............................................................    33

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Arrington, Paul L.:
    Opening Statement............................................    13
    Written Testimony............................................    15
    Response to Question for the Record..........................    57
Brown, Jerry:
    Opening Statement............................................    21
    Written Testimony............................................    23
    Responses to Questions for the Record........................    59
CleanWater Services:
    Letter for the Record........................................    72
DeVries, Michael:
    Opening Statement............................................    27
    Written Testimony............................................    29
    Response to Question for the Record..........................    61
Ewell, Austin:
    Opening Statement............................................     8
    Written Testimony............................................    10
    Responses to Questions for the Record........................    55
Family Farm Alliance:
    Statement for the Record.....................................     2
Flake, Hon. Jeff:
    Opening Statement............................................     1
King, Jr., Hon. Angus S.:
    Opening Statement............................................     7
Phillips, Jason:
    Opening Statement............................................    33
    Written Testimony............................................    35
    Responses to Questions for the Record........................    69


 
                     THE BUREAU OF RECLAMATION'S
                     TITLE TRANSFER PROCESS AND
                     POTENTIAL BENEFITS TO FEDERAL
                     AND NON-FEDERAL STAKEHOLDERS

                              ----------                              


                      WEDNESDAY, JANUARY 17, 2018

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:00 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Jeff Flake, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake [presiding]. This hearing of the Senate 
Energy and Natural Resources Subcommittee on Water and Power 
will come to order.
    The purpose of today's hearing is to receive testimony on 
the Bureau of Reclamation's title transfer process and 
potential benefits to federal and non-federal stakeholders. 
This is our latest in a series of hearings and roundtables as 
the Subcommittee prepares a water supply bill to deal with some 
of the pressing needs in Arizona and throughout the West.
    We have heard proposals on better managing existing 
infrastructures, streamlining the permitting process for new 
infrastructure, storing floodwater for future use and improving 
access on project financing.
    I look forward to today's discussion on how local ownership 
of water facilities can help speed up maintenance and 
improvements to Western water infrastructure. Voluntary title 
transfers are also an opportunity to relieve pressure on the 
federal budget.
    Represented on the panel today are a number of water 
agencies who have repaid their obligations to the Bureau of 
Reclamation and have taken over operations of their projects. 
We also have panel members whose agencies have successfully 
received the title to their projects, and I also look forward 
to learning more about their experiences.
    I would like to add into today's record the prepared 
testimony of Dan Keppen, Executive Director of the Family Farm 
Alliance, an organization that has pushed for improvements to 
the title transfer process for decades.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Flake. With that, I will now turn to the Ranking 
Member, Senator King.

             STATEMENT OF HON. ANGUS S. KING, JR., 
                    U.S. SENATOR FROM MAINE

    Senator King. Thank you, Mr. Chairman, I am delighted to be 
here this morning.
    This is one of those issues where there are significant 
differences between regions of the country.
    In my State of Maine, water is an enormous asset. I 
remember having officials of a foreign company fly over Maine, 
and I asked them their impression. They said one word, water. 
They had never seen so many lakes and streams and access to 
water.
    This is particularly an issue that is of grave importance 
to the West, but it is one that I am interested in and I am 
delighted to participate in this hearing.
    We are going to talk today about the title transfer process 
where the Bureau of Reclamation does work with interested 
parties to transfer ownership of certain facilities. These 
transfers currently require an Act of Congress. They are 
legislative approaches that we are talking about that would 
remove Congressional approval requirement in some processes, 
and we are going to hear more about some of those opportunities 
today.
    When done appropriately, I believe that title transfers can 
provide mutual benefits, and I hope we are going to hear about 
this from you gentlemen today, to the government and to the 
project partners. It can help address aging infrastructure, 
provide greater autonomy and flexibility in managing the 
facilities.
    The parameters that define which projects make good 
candidates for title transfer are important, however. Not all 
title transfer proposals will be right for all parties and we 
need to ensure that the operation of these facilities are done 
in accordance, of course, with our environmental laws.
    I look forward to hearing from our witnesses and learning 
more about the different perspectives of how title transfer can 
be an important tool in upgrading our country's aging 
infrastructure, if done in the right way.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you, Senator King.
    Thank you for joining us today. We appreciate your 
expertise. We will go ahead and do a couple of introductions 
and move on to the testimony.
    We begin this panel with Mr. Austin Ewell, Deputy Assistant 
Secretary for Water and Science at the U.S. Department of the 
Interior. Next, we will have Mr. Paul Arrington, Executive 
Director and General Counsel of the Idaho Water Users 
Association. Then we will have Mr. Jerry Brown, General Manager 
of Contra Costa Water District. Next is Mr. Mike DeVries, 
General Manager for the Metropolitan Water District of Salt 
Lake & Sandy, as well as the Director of Provo River Water 
Users Association. Finally, we have Mr. Jason Phillips, CEO of 
Friant Water Authority.
    I want to thank you for the testimony that you will provide 
today. Please limit your testimony to no more than five 
minutes, if possible, so we can maximize time for questions. 
Your full remarks, obviously, will be part of the record.
    With that, the Committee recognizes Mr. Ewell.

STATEMENT OF AUSTIN EWELL, DEPUTY ASSISTANT SECRETARY FOR WATER 
          AND SCIENCE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Ewell. Good morning. Thank you very much for having me 
here today. I'd also like to thank Lane for organizing and 
helping with the rescheduling.
    Chairman Flake, Ranking Member King and members of the 
Subcommittee, I am Austin Ewell, the Deputy Assistant Secretary 
for Water and Science at the Department of the Interior. The 
subject of today's hearing is one with which the Department is 
very familiar.
    The Department strongly supports Congress' efforts to 
better facilitate the title transfer of Reclamation facilities 
to non-federal entities. We appreciate the opportunity to 
engage in this discussion to share our knowledge and 
experiences with title transfers and learn from the 
stakeholders sitting alongside me today.
    For many years, Reclamation and interested stakeholders 
have been working together, along with other federal and state 
agencies and interested stakeholders, to negotiate the terms 
and conditions of specific title transfers. Unfortunately, even 
for simple transfers, this can be a time-consuming and costly 
process.
    In many cases, otherwise non-complicated candidates for 
title transfer have not proceeded because of the cost and time 
it takes to complete the required process and receive 
Congressional approval.
    Since 1996, Reclamation has transferred title to thirty 
projects or parts of projects across the West pursuant to 
various Acts of Congress. These title transfers generally have 
provided mutual benefits to both Reclamation and the non-
federal entities involved.
    Over time Reclamation recognized that there were many more 
entities that might be good candidates to take title, but had 
not pursued it for various reasons. In an effort to work with 
stakeholders who are interested in pursuing title transfers, 
Reclamation developed a process to facilitate additional title 
transfers in a consistent and comprehensive way known as the 
Framework for the Transfer of Title.
    This process has allowed interested non-federal entities to 
work with and through Reclamation to identify and address 
issues that will enable title transfers to move forward. We 
have found that this process allows interested parties to 
address issues up front, before going to Congress to obtain a 
title transfer authorization. And while we have had some 
success, we see that the current process can be improved upon 
as it still takes too long and discourages some good candidates 
from coming forward.
    The Department would welcome the opportunity to work with 
the Committee to draft title transfer legislation. There are a 
few key considerations which we believe should be considered in 
any potential legislation. First, the legislation should 
authorize the Secretary, through the Bureau of Reclamation, to 
administratively transfer title to projects and facilities 
based upon the establishment of specific eligibility criteria. 
Second, the process to develop title transfer agreements under 
a title transfer program should be open, public, and 
transparent. Third, as there currently is no categorical 
exclusion that applies to title transfers under the National 
Environmental Policy Act, Reclamation believes that the 
development of a categorical exclusion, depending upon its 
structure and content, would be a logical and helpful tool. 
Fourth, the existence of hydropower on a Reclamation project 
provides additional complexities that need to be addressed by 
legislation, including issues related to Federal Energy 
Regulatory Commission licensing and federal power marketing by 
the Power Marketing Administrations. Because of this 
complexity, Reclamation has not transferred any facilities that 
have included power generation facilities, but we are open to 
working through these matters with the Committee and our 
stakeholders. Finally, Reclamation recommends statutory 
language to ensure Reclamation law continues to control project 
water regardless of the title transfer and especially in 
circumstances where only a portion of a project is being 
transferred. This is important to ensure the transfer does not 
have an adverse impact on other project beneficiaries.
    In conclusion, we are encouraged by the Committee's 
interest in title transfer of Reclamation facilities and look 
forward to working with the Congress to achieve our mutual goal 
of ensuring title transfers are beneficial to all parties.
    Thank you very much.
    [The prepared statement of Mr. Ewell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Flake. Thank you.
    Mr. Arrington.

  STATEMENT OF PAUL L. ARRINGTON, EXECUTIVE DIRECTOR/GENERAL 
          COUNSEL, IDAHO WATER USERS ASSOCIATION, INC.

    Mr. Arrington. Thank you, Senator Flake.
    Chairman Flake, Ranking Member King, members of the 
Subcommittee, my name is Paul Arrington. I'm the Executive 
Director and General Counsel for the Idaho Water Users 
Association. I appreciate the opportunity to present testimony 
today on behalf of Idaho Water Users relating to the Bureau of 
Reclamation's title transfer process.
    At the outset, I'd like to express my appreciation to Lane 
and other members of the Committee staff for working to 
coordinate this hearing. I also want to express my appreciation 
to the Committee for moving forward with the nomination of 
Brenda Burman as a Commissioner of Reclamation. She has long 
been a friend of the water user community, and we look forward 
to working with her.
    In Idaho, we feel especially lucky. We also get the 
opportunity to work with Lorri Grey, the Reclamation's Regional 
Director. Like Commissioner Burman, she is a friend of the 
water community. In fact, Lorri and I were chatting just last 
night about this testimony, and she reiterated to me that title 
transfer is a mutually beneficial program and that a streamline 
process is needed for many title transfer processes or 
opportunities.
    One of the reasons I believe I was asked to testify today 
is because Idaho has a fairly rich history involving title 
transfer. In fact, one of the first successful Reclamation 
title transfers occurred in Idaho with the Burley Irrigation 
District in 1998. Since that time, three additional, excuse me, 
three additional entities have succeeded in obtaining title 
transfer. Another one is in the process right now and two 
others will commence the process shortly.
    We've talked a little bit today through testimony and in 
opening comments about the benefits associated with title 
transfer, local control of water resources, reducing or 
eliminating federal cost and liability associated with owning 
aging infrastructure, greater flexibility in access to 
financing in the operation and control of facilities, greater 
enforcement of easements and easier permitting for things like 
easement crossings.
    At the end of the day, in short, title transfer allows 
local water users to quickly and efficiently manage their 
system, something that can be difficult under federal 
ownership. The time and expense required due to NEPA analysis 
and getting/obtaining Congressional approval can be daunting 
and leads some to avoid going through the title transfer, some 
that might be qualified for it. In Idaho's experience, a title 
transfer can take upwards of ten years and $200,000 to 
accomplish.
    But there is another hurdle to title transfer that is 
impacting Idaho entities' desire and willingness to go through 
the process. That is the risk of losing project power through 
the title transfer process. This power provided a cost-based 
contracted rates is vital to the continued viability of these 
Reclamation projects.
    One such entity is the A&B Irrigation District in Southern 
Idaho. This is an entity that relies on project power to 
maintain affordable assessments and the risk of losing project 
power causes it to choose not to participate in the title 
transfer process. A&B is located in a center of Idaho's Snake 
River plain. For nearly three decades water users throughout 
the plain have experienced declining water supplies. Wells have 
been redrilled, moved and abandoned as water users have worked 
to protect their water supplies.
    Priority to the Administration is the norm throughout the 
plain. In 2009, the Idaho Water Resource Board adopted a 
comprehensive aquifer management plan that included a goal to 
change the aquifer budget by 600,000 acre-feet annually. The 
Department of Water Resources recently designated the area a 
groundwater management area.
    Recharge is a tool to help this water supply. Importantly, 
areas accessible by A&B's canals are prime recharge areas that 
will benefit the whole plain, including Reclamation storage 
projects. Unfortunately, the risk of losing its project power, 
though, will prevent, may prevent, A&B from taking the 
opportunity to participate in the title transfer process.
    While a valuable tool, title transfer can be approved. As 
this Subcommittee may contemplate possible legislation on title 
transfer, we would suggest the following considerations: First, 
not every title transfer should require a full NEPA analysis. 
As Mr. Ewell just discussed, there are opportunities, 
potentially, to have a categorical exemption for certain title 
transfers. Second, not all title transfers should require an 
Act of Congress. And third, access to project power should not 
be eliminated simply because of the title transfer process. 
Provisions should be included to provide that in certain 
circumstances access to project power may be maintained.
    Thank you for the opportunity to testify today. I look 
forward to answering any questions you might have.
    [The prepared statement of Mr. Arrington follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Flake. Thank you, Mr. Arrington.
    I should note, Brenda Burman is a proud export from 
Arizona.
    Mr. Arrington. Exactly. Great things, right?
    Senator Flake. Yes.
    Mr. Brown.

          STATEMENT OF JERRY BROWN, GENERAL MANAGER, 
                  CONTRA COSTA WATER DISTRICT

    Mr. Brown. Good morning, Chairman Flake, Senator King and 
members of the Subcommittee. My name is Jerry Brown. I'm the 
General Manager of the Contra Costa Water District (CCWD). We 
are an urban water agency located in the eastern part of the 
San Francisco Bay Area region in Northern California.
    CCWD is the oldest and largest M&I contractor within the 
Central Valley Project, providing high-quality water to 
approximately 500,000 residents and major industry. CCWD 
operates and maintains the Contra Costa Canal System, a unit of 
the Central Valley Project.
    The Contra Costa Canal System began construction in 1937 
and is an earthen canal, which was constructed and is owned by 
Reclamation. Because of adjacent development, the canal poses a 
safety and flood risk. Unfortunately, we have averaged one 
drowning per year since the canal was built.
    CCWD has 100 percent repaid Reclamation for costs of 
construction, and our CVP contract allows for transfer of 
Contra Costa Canal System title to CCWD upon authorization by 
Congress.
    In the mid-1990s, CCWD initiated and completed 
Reclamation's title transfer process but deferred the effort 
pending resolution of local stakeholder issues involving 
recreation.
    Reclamation's process for evaluating suitability for title 
transfer is lengthy and thorough. Based on what we learned in 
that effort and having resolved the recreation issues, CCWD has 
recently reinitiated efforts to pursue title transfer through 
legislation.
    CCWD is interested in title transfer because we plan to 
spend a half billion dollars to replace the canal with a buried 
pipe. The Contra Costa Canal System conveys nearly all of 
CCWD's water, and we prefer to own the facilities before making 
that level of investment. In addition, work on the canal system 
requires varying levels of coordination documentation with 
Reclamation for planning, engineering, maintenance and 
operation.
    CCWD ownership of the Canal System would eliminate much of 
this duplicative consultation that increases cost and causes 
schedule delays. Title transfer will result in lower costs and 
reduced Administrative burden and will eliminate flood and 
other safety concerns.
    Before deferring our previous title transfer effort, CCWD 
and Reclamation had worked for over two years on a transfer 
agreement. This included nine public negotiation sessions, 
environmental review and resolution of unique issues.
    Based on our experience, the following recommendations will 
streamline the title transfer process:
    Number one, Reclamation must assign an experienced program 
manager with authority to negotiate the transfer agreement with 
commitment of dedicated resources.
    Number two, environmental review, including NEPA, ESA and 
National Historical Preservation Act, should leverage all the 
previous documents previously prepared for the facilities. Over 
the years since our title transfer effort, CCWD and Reclamation 
have completed NEPA reviews and other consultations with U.S. 
Fish and Wildlife Service and the State Historic Preservation 
Officer and these provide an efficient starting point. Newly 
required analysis should only focus on specific and not 
previously analyzed environmental impacts related specifically 
to the transfer of ownership. An Environmental Assessment/
Finding of No Significant Impact was prepared for the previous 
title transfer effort and by the time the transfer process was 
deferred, U.S. Fish and Wildlife and SHPO had signed off on the 
additional permits as not being required. The significant 
amount of already completed recent reviews should be fully 
recognized and only for looking in new impacts specific to the 
title transfer of assets from Reclamation to CCWD should 
require additional review.
    Number three, Reclamation should be encouraged and 
authorized to proceed with quitclaiming federal property 
interests where title documentation is incomplete. A 
significant amount of time was spent during the previous effort 
trying to locate missing records with limited success. To try 
to re-survey or otherwise develop legal descriptions for all 
properties would be costly and provide little value. The 
existing right-of-way has been successfully managed and 
maintained for over 80 years using the existing land rights and 
quitclaim of all federal property interests to CCWD will 
provide a complete transfer without title conflict. Other title 
transfer legislation has also followed the quitclaim deed 
process.
    Number four, title transfer agreements should be allowed to 
proceed with contingencies for areas of uncertainty. For 
example, in our earlier transfer work we had a hazardous waste 
site that was included in the agreement, but actual transfer 
for that site was contingent upon Reclamation completing the 
cleanup as a follow-up.
    Number five, Congress should ensure Reclamation has the 
necessary resources to process the title transfers in a timely 
manner.
    And number six, definitive responsibilities and timelines 
should be established with accountability to Congress to ensure 
appropriate priority is given to title transfer tasks.
    Thank you for this opportunity to testify on this topic of 
importance to CCWD and your consideration of measures to 
streamline the title transfer process.
    [The prepared statement of Mr. Brown follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Flake. Thank you, Mr. Brown.
    Mr. DeVries.

 STATEMENT OF MICHAEL DeVRIES, GENERAL MANAGER OF METROPOLITAN 
  WATER DISTRICT OF SALT LAKE & SANDY, AND DIRECTOR OF PROVO 
                 RIVER WATER USERS ASSOCIATION

    Mr. DeVries. Good morning, Chairman Flake, Ranking Member 
King, Senator Lee and members of the Subcommittee. Thank you 
very much for the opportunity to testify today.
    My name is Michael DeVries, and I serve as the General 
Manager of the Metropolitan Water District of Salt Lake & Sandy 
as well as a Director of the Provo River Water Users 
Association. I am pleased to be here today to provide 
perspective on the benefits of title transfer related to Bureau 
of Reclamation project facilities in Utah.
    In 2006, the Salt Lake Aqueduct and related corridor, or 
SLA, were transferred to the District. The SLA is approximately 
42 miles in length and 84 inches in outside diameter. It 
reaches from the toe of Dear Creek Dam to the Salt Lake Valley. 
It was completed in 1951, and it's critical to the water supply 
of the Salt Lake Valley. It is approximately, in approximately 
20 years, rather, it will require major rehabilitation on the 
order of about $300 million or more.
    In 2014, the Provo Reservoir Canal and related corridor 
were transferred to the Association following a project that 
enclosed that canal. The current name of that facility is the 
Provo River Aqueduct, or PRA. The PRA is approximately 23 miles 
long and mostly 126 inches in diameter. The PRA is very 
critical to the water supply of north Utah County and the Salt 
Lake Valley.
    The reconstruction of Terminal Reservoir which is a Salt 
Lake aqueduct facility, was a $40 million project that is 
nearly completed. The District issued tax-exempt bonds to 
finance that project. That would not have been possible without 
title transfer.
    The Provo Reservoir Canal enclosure that resulted in the 
creation of the PRA was a $150 million project, and this 
enclosure was completed before title transfer. However, 
financing for that project would not have been possible absent 
a commitment that title transfer would transfer upon completion 
of the project.
    We are grateful for the many years of cooperation and 
assistance with Reclamation but title transfer has enabled 
improved efficiencies for the District and Association that 
have led to significant cost savings.
    The enclosure project that resulted in the PRA included new 
capacity for local public entities. And that participation was 
critical to the project. Those entities required a firm 
commitment of equal standing capacity, which would not have 
been possible, legally, under Reclamation ownership.
    Reclamation's lands people managed the SLA and PRA 
corridors before title transfer. Management of the SLA corridor 
by the District and management of the PRA corridor by the 
Association has been significantly simplified for both the 
public served by those facilities and local entities that need 
to cross those corridors with roads, utilities, et cetera.
    The enclosure project that created the PRA was intended to 
provide, and did provide, the following specific benefits, in 
addition to the general benefits previously described:
    Number one, the capacity of the canal needed to be enlarged 
in order to accommodate the capacity needs for local entities, 
as well as Utah Lake System water from the Central Utah Project 
for Salt Lake County.
    Number two, the canal had siphons to carry water under 
streams and highways. The siphons made the canal a drowning 
hazard. That hazard was eliminated by enclosure.
    Number three, prior to enclosure use of the canal 
maintenance road for recreation created significant safety 
issues for the public, as well as the Association. The 
enclosure made possible a 20-mile-long, paved trail under 
management of Utah County which is now one of the State of 
Utah's most utilized trails at parks.
    Number four, the canal was mostly unlined and perched on 
foothills above the valley floor. Enclosure of the canal has 
eliminated any flooding breach hazards.
    Number five, with urbanization of lands along the canal, a 
lot of trash was dumped into the open canal. A very large 
majority of the water in the canal has been carried to culinary 
water treatment plants. Enclosure has improved public drinking 
water safety.
    And number six, the mostly unlined canal lost, on average, 
approximately 8,000 acre-feet of water annually. Because 
enclosure allowed that water to be saved and used, the Salt 
Lake County ULS petitioners were able to give back 8,000 acre-
feet of ULS water to the DOI to be used for restoration of 
flows in the lower Provo River which is critical habitat for 
the endangered June Sucker.
    We are very grateful for the benefits that title transfer 
and the enclosure project have provided to our District and the 
Association. All involved would agree that an easier and more 
streamlined title transfer process would better serve the 
public, water entities and federal taxpayers.
    In speaking with my colleagues from other water entities in 
Utah, I believe that they also would benefit from an easier 
title transfer process.
    The general benefits for federal taxpayers, the District 
and Association have been evident with title transfer of the 
SLA and PRA.
    We greatly appreciate your interest in title transfer and 
urge you to consider streamlining the process.
    Mr. Chairman, we are committed to continuing to work with 
our delegation, this Committee and other Members of Congress 
who support title transfer. Thank you for this opportunity and 
your time and attention to this matter. I'd be pleased to 
answer any questions.
    [The prepared statement of Mr. DeVries follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Flake. Thank you.
    Mr. Phillips.

 STATEMENT OF JASON PHILLIPS, CHIEF EXECUTIVE OFFICER, FRIANT 
                      WATER AUTHORITY, CA

    Mr. Phillips. Good morning, Chairman Flake, Ranking Member 
King and members of the Subcommittee.
    My name is Jason Phillips, Chief Executive Officer of the 
Friant Water Authority in California. Friant Water Authority is 
a public agency formed under California law to operate and 
maintain the Friant-Kern Canal, a component of the Central 
Valley Project owned by the Bureau of Reclamation. The Friant-
Kern Canal is a 152-mile-long conveyance facility that delivers 
water to over a million acres of productive farmland, relied 
upon by over 15,000 farms and cities in the San Joaquin Valley.
    Thank you for the opportunity to testify on the process for 
transferring ownership of Reclamation's facilities to non-
federal interests. The Authority sees title transfer as a means 
to improve water management and address the challenges of aging 
infrastructure while at the same time reduce cost to the 
Federal Government and relieve it of potential liabilities.
    The problem is that the current title transfer process 
remains lengthy, overly complex and costly for the non-federal 
parties. Time, cost and uncertainty are powerful disincentives 
to undertaking a title transfer effort. The existing 
requirements which sometimes serve little useful purpose, 
nevertheless, entail substantial time, complexity and cost.
    The Friant-Kern Canal presents a good example of how title 
transfer can benefit both non-federal project beneficiaries and 
the federal taxpayer. The Authority is operated to maintain the 
Friant-Kern Canal under contract to Reclamation since 1986. 
Reclamation retains ownership of the canal and its related 
distribution works and administers the contracts governing the 
purchase and delivery of CVP water in the Friant Division. The 
Authority is responsible for all aspects of the canal's 
operation and maintenance as well as all the costs related to 
those activities.
    Since taking over the responsibility for the canal in 1986, 
the Authority has taken an aggressive and proactive approach to 
maintenance and repairs. Despite those efforts, the water 
carrying capacity of the canal has greatly diminished, partly 
because of natural settling and partly because of land 
subsidence resulting from significant groundwater pumping in 
the valley because of drought.
    The canal is completely gravity fed and ground subsidence 
has caused part of the canal to sink faster than others, 
significantly affecting the conveyance capacity of the canal. 
In fact, the drop is so severe that it has reduced our ability 
to deliver water to many Friant Division contractors by nearly 
60 percent. This means that during the exceptionally wet 2016 
and 2017 water years when the Friant-Kern Canal should have 
been facilitating recharge of badly depleted groundwater 
supplies, the canal could function at only 40 percent of 
capacity.
    The Authority and Reclamation are currently exploring 
options to address the canal's subsidence problems, both in the 
short- and long-term and because the San Joaquin Valley is 
already facing an estimated 2.5 million acre-foot per year 
water supply deficit, it is absolutely vital that the canal be 
restored to the original full capacity and doing so could cost 
up to $400 million.
    So with ownership of the canal, the Authority could move 
more rapidly and efficiently than the Federal Government in 
designing and carrying out repairs and would continue to 
operate and maintain the Friant-Kern Canal as it has for more 
than 30 years.
    One of the impediments to engaging Reclamation's title 
transfer process is the complexity and cost associated with 
certain environmental permits required for title transfers 
because the transfers are considered major federal actions. For 
example, some of the Authority member irrigation districts 
considered acquiring title to small Reclamation distribution 
works within their district boundaries but the districts 
concluded that the cost of the permitting review alone would 
exceed the benefits of taking ownership to the small 
facilities, which the districts have operated, maintained and 
repaired for many decades.
    Congress should act to appropriately focus the scope of 
permitting as they are applied to Reclamation title transfers. 
We would welcome the opportunity to work with the Committee to 
develop legislation to that end.
    In cases where only the ownership of a project will change 
and not its operation or footprint, permitting review should 
either not apply at all or be addressed in a programmatic 
fashion.
    The Committee should consider establishing criteria for 
waivers and exclusions for title transfers where no material 
change in project operation will occur until non-federal 
ownership.
    Finally, the Authority joins the Family Farm Alliance and 
other water user organizations in urging Congress to grant the 
Secretary of Interior broad authority to make title transfers 
without the necessity of further action by Congress.
    Thank you again for the opportunity to present the views of 
Friant Water Authority to the Subcommittee.
    [The prepared statement of Mr. Phillips follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Flake. Thank you, Mr. Phillips, and thank you all 
for your testimony. Let me just start.
    Mr. Ewell, Reclamation's FY'18 budget stated a proposal to 
facilitate greater title transfers was being developed by the 
Administration. What is the status of that proposal? What 
details can you give us at this point in terms of the 
Administration looking to address this issue?
    Mr. Ewell. Yes, thank you, Senator.
    The current program is being worked on closely and in a 
very collaborative manner with OMB. As that is continuing its 
process we hope to have something up this way in the coming 
weeks, as it relates to it.
    Generally, as, kind of, echoed by the stakeholders here 
today, the idea that a list of criteria, specific criteria, 
would be established and ultimately that the taxpayer and the 
Federal Treasury would be protected.
    Senator Flake. Great.
    For all the non-federal witnesses, to some extent or 
another in your testimonies you talk about the challenge and 
expense associated with NEPA and historic preservation reviews 
and the current processes as being a problem. Can you go a 
little deeper into that?
    Also, Mr. Brown, you made a suggestion that previous NEPA 
or Historic Preservation Act reviews can be utilized where 
possible. Can you talk first a little about that?
    Mr. Brown. Sure.
    As I mentioned there were many public sessions, public 
documents that were made available to the stakeholders and 
other parties. We do extensive analysis of every action on the 
canal right away. All that we're really seeking is going 
forward that there's a recognition of the past work and an 
incorporation of that, that we don't go back and redo that or 
duplicate it.
    Really, the facilities being 80 years, it's a culmination 
of a lot of different activities and events and almost to the 
number of them, they've all been analyzed in some various 
fashion under NEPA and the Preservation Act and so we are very 
concerned and very protective of the cultural resources, the 
historic nature of the facilities and we would just like to see 
that those things be recognized as adequate as we move forward.
    Senator Flake. Thank you.
    Anybody else on that subject?
    Mr. DeVries, your organization has had the benefit of 
having completed a transfer. Can you talk a little about the 
potential future operations, how the potential future 
operations are being considered by the Bureau in your process? 
I would be interested in anybody else who wants to discuss 
their experience here, but you specifically mentioned it. Do 
you want to talk about that?
    Mr. DeVries. Sure. Thank you, Senator.
    Relative to the operations, maintenance and replacement 
related obligations, I feel that the title transfer process, 
communications of such responsibilities from Reclamation to our 
District and Association, that that process has been a smooth 
process. I feel that we've effectively managed and handled that 
in coordination with Reclamation. They've been supportive. That 
has worked out well.
    I think where we've had the biggest challenge relates to 
the corridors and lands management related to the corridor, 
specifically the Salt Lake Aqueduct. When we took over that 
facility, there were a lot of encroachments that needed 
immediate attention. It was a big enough issue that we ended up 
having some state legislation passed to prevent adverse 
possession with some of the encroachments that related to the 
corridor because we had taken local ownership of that. So the 
big challenge that we had was going in and cleaning up a lot of 
remnants of encroachments that were probably just not handled 
the way they should have been prior to our taking over and 
maybe that wasn't communicated as effectively as it should have 
been relating to that process.
    Senator Flake. Thank you.
    Mr. DeVries. Thank you.
    Senator Flake. Senator King.
    Senator King. Mr. Ewell, all of you have testified that the 
length of time, I think somebody had said, a couple hundred 
thousand dollars, ten years. Why does it take so long? What are 
the obstacles?
    Mr. Ewell. Thank you, Senator, for the question.
    I think ultimately as the process is taking place there 
are, kind of, two components which probably have added length 
to the process. The first is entering, historically, into the 
MOA with the particular stakeholders. And last, as it relates 
to the legislative process.
    At the end of the day we believe that working with the 
stakeholders up front and being able to identify a number of 
these matters early on and allowing us to then enter into a 
title transfer agreement with the parties would help facilitate 
and expedite the process.
    Senator King. You are suggesting that Congress would slow 
down something? I am shocked, shocked.
    Mr. Ewell. Senator, I'm new to public service in DC, but 
there seems to be a theme there at times.
    Senator King. Well, I was wondering, there is a concern of 
Congress losing, entirely, the control over transfers of 
important public assets. One option might be instead of just 
abrogating the control with criteria, would be a Congressional 
veto within a certain period of time. In other words, make your 
deal, submit it to Congress. If Congress doesn't act within 90 
days, it is deemed approved. Then at least Congress would have 
an opportunity to review, if it chose. It would be, kind of, 
intermediate steps. So I commend that to you for your thinking 
as another alternative as we are approaching this.
    Let me ask about the NEPA question. Mr. Arrington, I think 
all of you have mentioned it. As I understand it, the problem 
is that NEPA is being applied simply for the handing of a deed, 
not for an action, not for a new dam or a new pump or anything 
else, and that is the problem.
    That is the problem you have identified. Am I correct?
    Mr. Arrington. Absolutely.
    One of the main things to stress on a lot, on a majority of 
the title transfers we're talking about here, we're talking 
single function or single purpose or few purpose entities that 
are going to be operated in the same way, post title transfer. 
And so, it really is simply a handing of a deed. These 
organizations have, for years, operated and maintained these 
systems even though Reclamation has owned them. They operate 
them, they maintain them, they clean them and now they're just 
taking title to them. And so, they'll transfer that paper is 
what is----
    Senator King. But if there was a contemplated major change 
in the facility, if it was transferred from public ownership, 
NEPA didn't apply to the transfer but then the new owner would 
be exempt from NEPA, would they not because it would not be a 
federal action or am I incorrect?
    Mr. Arrington. No, that's correct.
    I think that gets back to what Mr. Ewell was talking about 
earlier about a categorical exemption that identifies 
specifically what opportunities would fit under a categorical 
exemption. It wouldn't apply to every single title transfer.
    There may be a title transfer that would need a little more 
detailed review and maybe more NEPA, but for most of what we're 
seeing, at least in particular in the four that have happened 
in Idaho, the facilities were operated the same way after, 
there has been no change.
    Senator King. I think there needs to be some creative 
thinking about it because we don't want to exempt from NEPA a 
transfer which would lead to a substantial change and 
environmental impact. On the other hand, if it is just a 
transfer with no change in operation, I think you are talking 
about creating criterion and categorizing these transfers.
    Mr. Arrington. I agree with you.
    Senator King. Are these transfers always permanent or are 
they for a term of years? Are they fee simple or can they be 20 
years? What is the pattern?
    Mr. Arrington. Well, I can speak from our experiences. 
They're permanent transfers. I haven't--I'm not aware of any 
that are transfers for a period of years.
    Senator King. Okay.
    Final question. I noticed, Mr. Brown, you listed five 
criteria, or six, I think, of things that needed to be part of 
this. One is one sentence which is actually quite significant. 
I want to be sure I have the exact words. ``Congress should 
ensure Reclamation has the resources necessary to process title 
transfers in a timely way without impacting ongoing work.''
    There is a lot in that sentence because around here we 
often talk about cutting the bureaucracy and cutting the size 
of government, diminishing the size of government. I think we 
need to recognize that when we do things like that we cut the 
ability of government to respond to processes like what you are 
talking about.
    When I talk to my constituent services people in Maine, one 
of the biggest problems they have is there is nobody to answer 
the phone at various federal agencies or it takes forever to 
process a piece of paper. So we can't both talk about improved 
government service and starving the bureaucracy at the same 
time. We need people who have the ability to respond to these 
programs. I think that is an important point that is implicit 
in your comment. Is that correct, Mr. Brown?
    Mr. Brown. That's correct.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    Senator Lee.
    Senator Lee. Thank you very much, Mr. Chairman.
    Thanks to each of you for being here. I want to thank all 
of you for what you do to promote efficient, effective water 
management policies.
    I want to thank those of you who traveled out from the West 
and particularly you, Mr. DeVries, for being here. It is good 
to have a Utahan on the panel. In fact, I would like to start 
my questions with you, Mr. DeVries.
    You stated in your written testimony that prior to the 
title transfer that took place the money that the Bureau of 
Reclamation spent on the Salt Lake and Provo River aqueducts 
provided relatively little value because it mostly duplicated 
work that was already being conducted by the Districts and the 
Water Users Associations. Am I understanding your testimony 
correctly in that regard?
    Mr. DeVries. That is correct.
    And specifically to the operations and maintenance-related 
activities, the majority of that activity was already being 
handled by our District and the Association anyway.
    The right-of-way or encroachment issues related to the 
corridors, however, that was something that, as I mentioned, 
was something that we had to do quite a bit of catch-up work to 
get things under control, in essence. And we're still--that's 
still in progress.
    Senator Lee. Was that the only activity, prior to title 
transfer, what was happening through the Bureau of Reclamation 
that could not be handled or was not being handled effectively 
by the Water Users Associations and Districts?
    Mr. DeVries. Well, really the main thing that was 
happening, and it was more related to the Salt Lake aqueduct 
corridor, again, was the corridor management of the properties 
and lands related to that corridor. So that was something that 
we feel now that we're able to handle that locally. We're able 
to respond and be more efficient with the process of taking 
care of encroachments, taking care of crossings, anything 
related to that corridor.
    Senator Lee. At a lower cost?
    Mr. DeVries. At a lower cost, correct.
    Senator Lee. You also mentioned in your written testimony 
that NEPA played a significant role, the federal NEPA 
requirements added rather substantial costs to the enclosure 
project along the Provo River Canal, but the reconstruction of 
the terminal reservoir, on the other hand, was done following 
the title transfer. Is that right?
    Mr. DeVries. That is correct.
    Senator Lee. And my understanding is that saved the 
District a lot of money because it did not have to go through 
the NEPA process.
    Mr. DeVries. That's correct. It was an interest-free loan 
because it was locally owned, in essence.
    Senator Lee. Can you give me a rough approximation as to 
how much money the water district saved because of the fact 
that this reconstruction occurred after the title transfer?
    Mr. DeVries. You know, I don't have those exact numbers, 
Senator. My guess is probably on the order of millions of 
dollars because the loan, again, was interest-free. So I'd have 
to get exact numbers or have to do more analysis to get you an 
exact number.
    Senator Lee. Okay, but it was likely in the millions of 
dollars?
    Mr. DeVries. Correct.
    Senator Lee. And were the environmental conditions worse 
during the project or are the environmental conditions today 
worse as a result of the fact that this didn't go through the 
NEPA process but was instead subject to local authorities, 
local laws?
    Mr. DeVries. You know, I think because we--so obviously, we 
had the savings of not having to go through NEPA. 
Environmentally, there really were no negative impacts to not 
going through NEPA. It basically was reconstruction, same 
footprint, same site. So, really there was nothing that would 
have--it would have not helped the process to have to go 
through a NEPA process in this case.
    Senator Lee. Can you walk us through some of the steps 
taken by the State of Utah and by the Provo River Water Users 
Association to make sure that the environment was protected?
    Mr. DeVries. Yeah.
    So, I think, again, the key here is any work, 
reconstruction, replacement or other activities related to 
these facilities, either the PRA or the SOA, any work that's 
done, like obviously we're going to be looking out for any 
potential impacts, environmentally speaking and work closely 
with the state, along those lines.
    But in every case, it's always been in the same footprint, 
same area, so the likelihood of any impacts is pretty slim 
anyway as far as environmentally speaking. But nonetheless, it 
is something we are sensitive to and work closely with the 
state on.
    Senator Lee. While saving millions of dollars.
    Mr. DeVries. Right.
    Senator Lee. Because of the lack of need to go through the 
federal NEPA legislation.
    You still get the same environmental protection, the same. 
The environment is no less protected, even while millions of 
dollars in compliance costs are being saved.
    Mr. DeVries. Correct.
    And I would add that additionally we don't have to have 
Reclamation inspectors involved with any projects when it comes 
to reconstruction. So that is handled locally with our entities 
as opposed to having multiple layers of inspectors which adds 
additional costs as well.
    Senator Lee. Thank you, Mr. DeVries.
    Mr. DeVries. Thank you.
    Senator Lee. Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    It is nice to have Senator Smith on the Subcommittee, and I 
just want you to know all three of us are jealous of the 10,000 
lakes you have, speaking of water.
    [Laughter.]
    But I appreciate you being here. Your turn.
    Senator Smith. Thank you very much, Chair Flake, and I am 
happy to be here.
    I want to just start out by saying that I want to thank all 
of our witnesses for being here today and you know, I, too, 
have spent a lot of time when I was Lieutenant Governor trying 
to figure out how to make government work better, more 
efficiently, more cost-effectively. So I share that goal.
    I just want to ask a couple of things.
    As Senator Flake was saying, we do not have a lot of Bureau 
of Reclamation projects in Minnesota, in my state, the Land of 
10,000 Lakes, but the Bureau is the second largest producer of 
hydropower in the country and many of the rural electric co-ops 
that actually provide electricity to about 75 percent of the 
geographic mass of Minnesota, and also the municipal utilities, 
rely on purchasing electricity from Bureau hydro facilities 
around the country. So it is really important to me that, for 
Minnesota, any changes that we might make to the title transfer 
process would not affect electricity rates in Minnesota where 
we have very competitive rates.
    Mr. Ewell, could you just comment on that and help me 
understand how this might work?
    Mr. Ewell. Sure, thank you, Senator.
    Senator Smith. In regard to the co-ops.
    Mr. Ewell. My pleasure.
    As you pointed out there are certain complexities that 
relate to hydropower projects. And in particular, as I had 
mentioned in my testimony, with FERC licensing as well as the 
Power Marketing Administrations. And due to those complexities, 
historically Reclamation has not transferred, of the 30 
projects since 1996, none of those have had a power component 
to it. However, we're very much willing to work with the 
stakeholders and the Committee on a particular project because 
each one is unique by its nature, but to work on that to see if 
there is a way to protect and maintain those very matters that 
you had raised.
    Senator Smith. Okay, thank you.
    To follow up on the questions that Senator King was asking, 
how would that work? As I understand it the Administration is 
asking for some sort of a categorical exemption from 
Congressional review. How would that work with these, with the 
hydro question, as well as, you know, I am also concerned, of 
course, about the categorical exemption from making sure that 
environmental safeguards are followed?
    Mr. Ewell. No, understood and thank you for the follow-up 
question.
    As mentioned earlier, as it relates to those projects and 
kind of as the current legislation that's being worked on in 
conjunction with other departments and OMB which we hope to 
have up here in the coming weeks, but that criteria would look 
at more single purpose projects such that those that don't have 
complexities in relation to them that would qualify for that 
potential categorical exclusion. It would be possible that the 
more complex project would then need to still go through that 
NEPA process.
    Senator Smith. I look forward to continuing to work on 
that. I think that that is a really important issue.
    I just want to ask one more question with the time that I 
have.
    As you were saying, Minnesota has lots and lots of water, 
but surprisingly we don't have very much water at all in the 
southern part of our state. We have real issues with droughts 
and water shortages which have a significant impact on rural 
economic development which brings me to the Lewis and Clark 
project which is very important, a big pipeline to bring water 
into southern Minnesota and on to Iowa. This project is about 
73 percent complete and it still needs significant resources to 
be completed. In fact, the state has stepped in to fund the 
project while we are awaiting federal funds.
    I am just wondering, since I have you here, if you will 
commit to working with me on the completion of this really 
important project for rural economic development in Minnesota?
    Mr. Ewell. Thank you for the question, Senator.
    I'm happy to work with you and any stakeholders as it 
relates to projects. Part of my reason in coming to Washington, 
DC, was to serve and to work with those stakeholders and 
customers of Reclamation to try to complete projects and 
fulfill the mission of Reclamation.
    I look forward to it. Thank you.
    Senator Smith. Well, thank you. That will be very 
important.
    I will look forward to talking with you more about the 
funding in the President's 2019 funding request which will be 
very important to us finishing the project.
    Mr. Ewell. Thank you.
    Senator Flake. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Senator Flake.
    Senator Smith, welcome to the Committee.
    When I was Lieutenant Governor I missed the class on the 
ranking of the states for hydropower. Where does Idaho rank on 
that?
    [Laughter.]
    I would not have looked at Minnesota as number two.
    Senator Smith. Well, it is because we purchase so much 
hydropower from other states, Senator.
    Senator Risch. Ahhh----
    Senator Smith. Otherwise, yes, we have very little 
hydropower in our state. We buy it mostly from other places, 
including Canada.
    Senator Risch. Well, next of all I am from Lewis and Clark 
Country. Are you going to also try to tell me that Lewis and 
Clark explored Minnesota when they went through there? We are 
going to have some difficulties, I think.
    [Laughter.]
    Senator Smith. Oh, I bet we will get along, Senator.
    [Laughter.]
    Senator Risch. Well, thank you so much.
    The southern part of our state is extremely dry and would 
be very much desert like a lot of the other intermountain 
western states. We have a real interest in this since most of 
these are conveyances that have been done or a lot of the 
conveyances that have been done, have been done in Idaho.
    Mr. Chairman, I really do not have any questions, but what 
I do want to do is thank you for holding this hearing. I hope 
we can actually make some progress in this area because it is 
really important that as we move ahead with the fact that Idaho 
has two-thirds of the Reclamation assets in Idaho are managed 
by non-federal entities. It is really important when they need 
to do one of these conveyances that we do it in a less 
cumbersome manner than what we have.
    So thank you for the hearing, and I hope we can actually 
get some drafting done and get something done. And thank you to 
the witnesses, although I could not be here, I did see some of 
it on TV.
    Paul, welcome to Washington. I have no doubt that you will 
do as well as your predecessor did who had a long range, as you 
know, in that and is Mr. Water in Idaho.
    Thank you, Mr. Chairman.
    Senator Flake. Well, thank you. Thank you, Senator Risch.
    Just one follow-up question, if I can, with Mr. Phillips. 
There was some discussion, and we had a little discussion here, 
about the continued applicability to some of these rules with 
the transfers. You said in your statement, ``All such laws will 
continue to apply through the Friant-Kern Canal operations 
regardless of facility's ownership.'' Is that generally the 
case?
    Mr. Phillips. Well certainly in California the similar law 
would still apply and, in fact, if we wanted to do anything 
different than current operations it's possible that federal 
law would apply to those actions, if we wanted to make any 
major infrastructure changes.
    So, we might not----
    Senator Flake. So if it is just an ownership change, no 
problem.
    Mr. Phillips. Yeah.
    Senator Flake. But if there is change in operations?
    Mr. Phillips. Exactly.
    And I wanted to give one example of one of our districts 
who, just a couple years ago, we repaid all of our contracts in 
2010, over 30 districts. One of those districts that has the 
pipelines that it uses to distribute water off of the canal and 
then also the house that it uses for administration, there's 
never any federal employees there. They've owned it or not 
owned it, but they've used it for decades. And when they 
approached Reclamation with we'd be interested in title 
transfer, Reclamation said, just for those pipelines and for 
the one admin building, you need to transfer us $1 million so 
that we can start the permitting process. And that's the last 
discussion they've had, obviously. And so that gets into what 
are they doing, what is the need for that?
    Senator Flake. Thank you. Thank you. I appreciate that.
    I thank you all for sharing your experience or expertise 
and experience, insights, here today.
    Last Congress we were able to put together a water supply 
bill that addressed many of the needs from across the West. I 
think between this bill and the Subcommittee's hearings, we 
have the material to go to work on another water supply and 
drought bill that deals with a number of the certainty and 
supply and operations issues that you all discussed today.
    For the information of the members, questions may be 
submitted for the record before the close of business on 
Thursday. The record will remain open for two weeks. We ask the 
witnesses to respond as promptly as possible and your responses 
will be made part of the record. With the thanks of the 
Committee, the Committee stands adjourned.
    [Whereupon, at 11:53 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

				[all]
</pre></body></html>
